1a
941 F.3d 618
United States Court of Appeals, Second Circuit.
Michael Anthony DEEM, Plaintiff-Appellant,
v.
Lorna DIMELLA-DEEM, Robert J. Filewich, PhD,
Angelina Young, Rollin Aurelien, Robin D. Carton,
Esq., Faith G. Miller, Angela DiMella, Jane Doe, Hon.
Arlene Gordon-Oliver, F.C.J., Defendants-Appellees.
Docket No. 18-2266August Term, 2019

■-

Argued: August 26, 2019Decided: October 30, 2019
Appeal from the United States District Court for the
Southern District of New York, No. 18-cv-6186,
Román, Judge.
Attorneys and Law Firms
Michael Anthony Deem, pro se, Yonkers, NY (argued).
Lorna DiMella-Deem, pro se, Briarcliff Manor, NY.
Barbara DeCrow Goldberg, Martin Clearwater & Bell
LLP, New York, NY (argued), for Defendant-Appellee
Robert J. Filewich, PhD.
John M. Nonna, Westchester County Attorney (Justin
R. Adin, Associate County Attorney, on the brief),
White Plains, NY, for Defendant-Appellee Angelina
Young.

2a
Thomas E. Humbach, Rockland County Department of
Law, New City, NY, for Defendant-Appellee Rollin
Aurelien.
Erin A. O’Leary, Morgan Melhuish Abrutyn, Attorneys
at Law, New York, NY, for Defendant-Appellee Robin
D. Carton, Esq.
Brett A. Scher, Kaufman Dolowich & Voluck LLP,
Woodbury, NY, for Defendant-Appellee Faith G.
Miller.
Angela DiMella, pro se, Cortlandt Manor, NY.
Barbara D. Underwood, Attorney General, State of
New York (Judith N. Vale, Senior Assistant Solicitor
General, argued and on the brief, and Mark H.
Shawhan, Assistant Solicitor General, on the brief),
New York, NY, for Defendant-Appellee Hon. Arlene
Gordon-Oliver, F.C.J.
Before: Winter, Pooler, and Sullivan, Circuit Judges.
Opinion
Richard J. Sullivan, Circuit Judge:
In November 2017, Plaintiff-Appellant Michael
Anthony Deem filed for divorce from DefendantAppellee Lorna DiMella-Deem in New York State
Supreme Court, Westchester County, seeking joint
custody of their two children. The divorce gave rise to
family court proceedings over which Family Court
Judge Arlene Gordon-Oliver presided. In the course of
those proceedings, Judge Gordon-Oliver granted an
application filed by Defendant-Appellee Faith Miller,

3a
who had been appointed to represent the children
during the family court proceedings, for a temporary
protection order requiring Deem to refrain from any
contact with the children.
Deem, a licensed attorney, responded by filing
this suit in the Southern District of New York against
his wife, their marriage counselor, Judge GordonOliver,
and
other
individuals
(collectively,
“Defendants”) involved in the family court proceedings.
In particular, Deem asserted claims under 42 U.S.C. §§
1983, 1985, and New York state law, alleging, inter alia,
that Defendants conspired to maliciously prosecute him
and to violate his right to intimate association with his
children. Upon the filing of Deem’s complaint, Judge
Gordon-Oliver recused herself, adjourned an upcoming
hearing to a date two months out, and transferred the
case to a different judge. Judge Gordon-Oliver also
extended the temporary order of protection until the
next court date. One week later, Deem filed an
amended complaint seeking damages against Judge
Gordon-Oliver.
On July 24, 2018, the district court (Nelson S.
Román, Judge) sua
sponte dismissed
the
case.
Specifically, the district court concluded that Judge
Gordon-Oliver was entitled to judicial immunity and
that Deem’s claims against her were therefore
frivolous. With respect to Deem’s federal claims against
the remaining defendants, the district court declined to
exercise subject matter jurisdiction, ruling that
abstention was warranted under our holding
in American Airlines, Inc. v. Block, since Deem’s
claims “are, or are on the verge of being, about child
custody,” and Deem had “alleged no facts indicating
that there is any ‘obstacle to [a] full and fair
determination [of his child custody issues] in state

4a
courts.’ ” App’x at 44 (alterations in original)
(quoting Am. Airlines, Inc. v. Block, 905 F.2d 12, 14 (2d
Cir. 1990)). After dismissing all of Deem’s federal
claims, the district court declined to exercise
supplemental jurisdiction over his state law
claims. Deem timely appealed the dismissal of his
federal claims.
I. Judicial Immunity
We affirm the dismissal of Deem’s claims against
Judge Gordon-Oliver substantially for the reasons set
forth
in
the
district
court’s
well-reasoned
decision. See App’x 40–42. In particular, the district
court correctly determined that, at all relevant times,
Judge
Gordon-Oliver
acted
in
her
judicial
capacity. See Mireles v. Waco, 502 U.S. 9, 11, 112 S.Ct.
286, 116 L.Ed.2d 9 (1991). Furthermore, even assuming
that Judge Gordon-Oliver erred in extending the
temporary protection order against Deem shortly after
recusing herself, any such error falls far short of an act
“taken in the complete absence of all jurisdiction.” Id. at
12, 112 S.Ct. 286; see also, e.g., Brandley v. Keeshan, 64
F.3d 196, 201 (5th Cir. 1995) (holding that judicial
immunity barred suit against a state court judge who
set an execution date after recusing himself), abrogated
on other grounds by Wallace v. Kato, 549 U.S. 384, 127
S.Ct. 1091, 166 L.Ed.2d 973 (2007). Because Judge
Gordon-Oliver was thus clearly entitled to judicial
immunity, the district court did not err in sua sponte
dismissing the claims against her as frivolous. See Mills
v. Fischer, 645 F.3d 176, 177 (2d Cir. 2011) (“Any claim
dismissed on the ground of absolute judicial immunity
is ‘frivolous’ for purposes of 28 U.S.C. § 1915(g).”).

5a
II. Domestic Relations Exception and Abstention
With respect to Deem’s remaining federal
claims, the district court abstained from exercising
subject matter jurisdiction under American Airlines.
On appeal, Deem argues that, under our subsequent
decision in Williams v. Lambert, 46 F.3d 1275 (2d Cir.
1995), the domestic relations abstention doctrine does
not apply in federal-question cases. We disagree.
Although the domestic relations “exception” to subject
matter jurisdiction recognized by the Supreme Court
in Ankenbrandt v. Richards, 504 U.S. 689, 112 S.Ct.
2206, 119 L.Ed.2d 468 (1992), does not apply in federalquestion cases, the domestic relations abstention
doctrine articulated in American Airlines does. And
since American Airlines remains good law in this
Circuit, we affirm the district court’s dismissal of
Deem’s federal claims on abstention grounds.
A.
Background:
American
Airlines
Ankenbrandt (1992), and Williams (1995)

(1990),

In American Airlines, a federal-question
interpleader case, we held that the district court erred
in not abstaining from adjudicating the parties’ dispute
over the distribution of certain funds — specifically,
funds corresponding to an ex-spouse’s maintenance
obligations that had not yet been reduced to a final
judgment in state court. 905 F.2d at 15. Before reaching
the question of abstention, we first concluded that the
case did not fall within the exception to subject matter
jurisdiction recognized in Barber v. Barber, 62 U.S. (21
How.) 582, 584, 16 L.Ed. 226 (1858). Id. at 14. That was
so, we explained, because the Barber exception applied
“only where a federal court is asked to grant a divorce

6a
or annulment, determine support payments, or award
custody of a child” — in other words, a “rather
narrowly confined” set of disputes not present
in American Airlines. Id. (internal quotation marks and
citation omitted). We also noted that the exception
might not apply in federal-question cases, but declined
to resolve that issue. Id. at 14 n.1. Proceeding to the
question of abstention, we then explained:
Nevertheless, even if subject matter jurisdiction
lies over a particular matrimonial action, federal
courts may properly abstain from adjudicating
such actions in view of the greater interest and
expertise of state courts in this field. A federal
court presented with matrimonial issues or
issues “on the verge” of being matrimonial in
nature
should
abstain
from exercising
jurisdiction so long as there is no obstacle to
their full and fair determination in state courts.
Id. at 14 (quoting Bossom v. Bossom, 551 F.2d 474, 475
(2d Cir. 1976) (per curiam); Phillips, Nizer, Benjamin,
Krim & Ballon v. Rosenstiel, 490 F.2d 509, 516 (2d Cir.
1973)). Because the parties’ dispute over certain
maintenance funds was, at a minimum, on the verge of
being matrimonial in nature, and since there was no
obstacle to the full and fair determination of that
dispute in state court, we concluded that the district
court should have abstained from exercising
jurisdiction over it. See id. at 14–15.
Two years later, in Ankenbrandt, the Supreme
Court reaffirmed the existence of the jurisdictional
exception recognized in Barber. 504 U.S. at 699–704,
112 S.Ct. 2206. The Court first held that the domestic
relations exception was not of constitutional dimension,

7a
but rather was an implied exception to Congress’s
grant of diversity jurisdiction in 28 U.S.C. § 1332. Id. at
696, 700–03, 112 S.Ct. 2206. The Court further held,
consistent with American Airlines, that the exception
did not apply because the plaintiff’s tort suit for
damages, alleging child abuse against her ex-husband
and his female companion, did not “involv[e] the
issuance of a divorce, alimony, or child custody
decree.” Id. at 704, 112 S.Ct. 2206. Finally, the Court
concluded that abstention was not appropriate
under Younger v. Harris, 401 U.S. 37, 91 S.Ct. 746, 27
L.Ed.2d 669 (1971), because there were no pending
state court proceedings, or under Burford v. Sun Oil
Co., 319 U.S. 315, 63 S.Ct. 1098, 87 L.Ed. 1424 (1943),
because the “status of the domestic relationship ha[d]
been determined as a matter of state law, and in any
event ha[d] no bearing on the underlying torts
alleged.” Id. at 705–06, 112 S.Ct. 2206.
The following year, in Williams, we considered
an Equal Protection Clause challenge to a New York
law that allegedly discriminated against children born
out of wedlock. 46 F.3d at 1277. After concluding that
various other abstention doctrines did not apply, we
stated, without elaboration, that “the general policy
that federal courts should abstain from deciding cases
that involve matrimonial and domestic relations issues”
likewise
did
not
apply. Id. at
1281–83.
The Williams decision did not mention abstention
again, but rather proceeded to discuss the “matrimonial
exception” articulated in Barber and reaffirmed in
Ankenbrandt. Id. at 1283–84. In the course of that
discussion,
Williams cited American
Airlines in
passing, together with other cases, when recognizing
the existence of the matrimonial exception; however,
Williams did not address or even acknowledge

8a
American Airlines’s abstention holding. Id. at 1283.
Ultimately, the Williams Court held that “the
matrimonial exception d[id] not apply” because the case
did not involve a decree for divorce, alimony, or child
custody, and was “before this Court on federal question
jurisdiction, not diversity.” Id. at 1284.
B. Discussion
Here, as in American Airlines, we first consider
whether the domestic relations exception to federal
jurisdiction applies — that is, whether the district court
lacks subject matter jurisdiction as a threshold matter
— and then, if the answer is no, we proceed to consider
whether the district court properly abstained from
exercising its jurisdiction. See Am. Airlines, 905 F.2d at
15; see also In re S.G. Phillips Constructors, Inc., 45
F.3d 702, 708 (2d Cir. 1995) (“[T]he abstention
provisions implicate the question whether the
bankruptcy court should exercise jurisdiction, not
whether the court has jurisdiction in the first instance.
... The act of abstaining *623 presumes that proper
jurisdiction otherwise exists.”).
With respect to the first question, the domestic
relations exception clearly does not apply to this case
because it is “before this Court on federal question
jurisdiction, not diversity.” Williams, 46 F.3d at 1284.
Even if that answer were not compelled by our holding
in Williams, we would find no basis for inferring a
domestic relations exception to the federal-question
jurisdiction statute, 28 U.S.C. § 1331. That the Court
in Ankenbrandt recognized a domestic relations
exception to the diversity jurisdiction statute (based
mainly on the statute’s pre-1948 text, the Court’s
longstanding interpretation, and stare decisis) has no

9a
bearing on whether such an exception applies in nondiversity cases. See Atwood v. Fort Peck Tribal Court
Assiniboine, 513 F.3d 943, 947 (9th Cir. 2008) (holding
that the domestic relations exception does not apply in
non-diversity cases); United States v. Bailey, 115 F.3d
1222, 1231 (5th Cir. 1997) (same); United States v.
Johnson, 114 F.3d 476, 481 (4th Cir. 1997) (same). Nor
are we persuaded by the Seventh Circuit’s view that
“the domestic-relations exception ... appl[ies] to both
federal-question and diversity suits.” Kowalski v.
Boliker, 893 F.3d 987, 995 (7th Cir. 2018) (citing Allen v.
Allen, 48 F.3d 259, 262 n.3 (7th Cir. 1995)). In Allen, the
court recognized that the “domestic relations exception
is statutorily carved out from diversity jurisdiction,”
but reasoned that “its goal of leaving family disputes to
the courts best suited to deal with them [was] equally
strong, if not stronger, in the instant, non-diversity
dispute.” 48 F.3d at 262 n.3. But the exception’s “goal”
is not enough to broaden its scope beyond the diversity
jurisdiction context, since the exception “exists as a
matter of statutory construction.” Ankenbrandt, 504
U.S. at 700, 112 S.Ct. 2206. Thus, in the federalquestion context, the policies animating the outcome
in Allen are appropriately considered as a basis for
domestic-relations abstention,
not
the
domestic
relations exception.
With respect to abstention, we agree with the
district court that Deem’s claims are, at a minimum, “on
the verge of being matrimonial in nature” and that
“there is no obstacle to their full and fair determination
in state courts.” Am. Airlines, 905 F.2d at 14 (internal
quotation marks omitted). Accordingly, this case is
squarely governed by our holding in American
Airlines, unless that holding is no longer good law.

10a
Turning then to the question of American
Airlines’s validity, we begin by recognizing the basic
rule that a published panel decision is binding on future
panels “unless and until it is overruled by the Court en
banc or by the Supreme Court.” Jones v. Coughlin, 45
F.3d 677, 679 (2d Cir. 1995) (per curiam). Of course,
“[w]e have recognized ... that there is an exception to
this general rule when an intervening Supreme Court
decision ... casts doubt on our controlling precedent.” In
re Arab Bank, PLC Alien Tort Statute Litig., 808 F.3d
144, 154 (2d Cir. 2015) as amended (Dec. 17, 2015)
(internal quotation marks and citation omitted), aff’d
sub nom. Jesner v. Arab Bank, PLC, ––– U.S. ––––, 138
S. Ct. 1386, 200 L.Ed.2d 612 (2018). In those
circumstances, “the intervening decision need not
address the precise issue already decided by our
Court,” though there must still be a “conflict,
incompatibility, or inconsistency” between the
intervening decision and our precedent. Id. at 154–
55 (brackets, internal quotation marks, and citations
omitted).
Ankenbrandt, the intervening Supreme Court
decision most relevant to American Airlines’s
abstention holding, neither overruled that holding nor
cast doubt on it to *624 the extent that we are free to
chart a new course here. As we have
explained, Ankenbrandt was not a federal-question
case and thus did not squarely address the issue
presented in American Airlines or this case. And
while Ankenbrandt could be read to suggest that
abstention based on domestic relations concerns is
merely a variant of Younger or Burford abstention, see
Ankenbrandt, 504 U.S. at 705–06, 706 n.8, 112 S.Ct.
2206, the existence of a distinct abstention doctrine for
certain domestic relations disputes is supported by the

11a
Supreme Court’s longstanding recognition — in a nondiversity case involving a child custody dispute — that
“[t]he whole subject of the domestic relations of
husband and wife, parent and child, belongs to the laws
of the states, and not to the laws of the United
States.” In re Burrus, 136 U.S. 586, 593–94, 10 S.Ct.
850, 34 L.Ed. 500 (1890); see also Ankenbrandt, 504
U.S. at 703, 112 S.Ct. 2206 (citing In re Burrus with
approval while noting that it “technically did not
involve a construction of the diversity statute”); Elk
Grove Unified Sch. Dist. v. Newdow, 542 U.S. 1, 13, 124
S.Ct. 2301, 159 L.Ed.2d 98 (2004) (reiterating, in the
context of prudential standing, that “in general it is
appropriate for the federal courts to leave delicate
issues of domestic relations to the state
courts”), abrogated on other grounds by Lexmark Int’l,
Inc. v. Static Control Components, Inc., 572 U.S. 118,
134 S.Ct. 1377, 188 L.Ed.2d 392 (2014). Consistent with
these statements, several of our sister circuits have
continued to recognize a distinct domestic relations
abstention doctrine in one form or another postAnkenbrandt. See supra pp. 621–22 (discussing the
Seventh Circuit’s abstention-like approach to federalquestion domestic relations cases); Chambers v.
Michigan, 473 F. App'x 477, 479 (6th Cir. 2012)
(unpublished) (“Even when brought under the guise of
a federal question action, a suit whose substance is
domestic relations generally will not be entertained in a
federal court.” (citing Firestone v. Cleveland Tr. Co.,
654 F.2d 1212, 1215 (6th Cir. 1981))); DeMauro v.
DeMauro, 115 F.3d 94, 99 (1st Cir. 1997) (“[A]bstention
by use of a stay may be permissible where a RICO
action is directed against concealment or transfer of
property that is the very subject of a pending divorce
proceeding.”); see also Pennzoil Co. v. Texaco, Inc., 481

12a
U.S. 1, 11 n.9, 107 S.Ct. 1519, 95 L.Ed.2d 1 (1987) (“The
various types of abstention are not rigid pigeonholes
into which federal courts must try to fit cases.”).
Therefore, in the absence of a clear statement from the
Supreme Court precluding an abstention doctrine like
the one in American Airlines, we discern no conflict,
incompatibility, or inconsistency between that case and
intervening Supreme Court law that would render
prior Circuit precedent not binding on us. See In re
Arab Bank, 808 F.3d at 153 (“Whatever the tension
between [our precedent and Supreme Court
precedent],
the
decisions
are
not
logically
inconsistent.”).
Finally, there is no merit to the argument that
the abstention issue presented here is governed by
Williams rather than American Airlines. Admittedly,
certain language in Williams is, at first glance,
suggestive
of
a
ruling
on
abstention.
Nevertheless, Williams did not squarely address
whether abstention under American Airlines was
appropriate, let alone whether its abstention holding
had been abrogated by Ankenbrandt. See 46 F.3d at
1283–84.
Rather,
Williams
ultimately
relied
on Ankenbrandt to
conclude
that
“the
matrimonial exception does
not
apply.” Id. at
1284 (emphasis added). In these circumstances, we will
not read Williams to be in conflict with American
Airlines, much less a binding holding that American
Airlines is no longer good law. See Friends of the E.
Hampton Airport, Inc. v. Town of E. Hampton, 841
F.3d 133, 153 (2d Cir. 2016) (“[A] sub silentio holding is
not binding precedent.” (internal quotation marks and
citation omitted)). Furthermore, “even if the [Williams]
Court had wanted to overrule [American Airlines], it
could not have done so.” Tanasi v. New All. Bank, 786

13a
F.3d 195, 200 n.6 (2d Cir. 2015) as amended (May 21,
2015). Thus, even assuming the two cases were in direct
conflict, we would “have no choice but to
follow” American Airlines, and we do so here.1 Id.
Accordingly, since American Airlines continues
to be the law of this Circuit, and since Deem’s claims
are at least “on the verge of being matrimonial in
nature” and are capable of being fairly resolved in state
court, we affirm the district court’s dismissal of Deem’s
federal claims on abstention grounds.
III.
We have considered Deem’s remaining
arguments and find them without merit. For the
reasons stated above, we AFFIRM the judgment of
the district court.
Footnote
1Our decision today is consistent with our unbroken
practice of citing American Airlines when upholding, in
unpublished decisions, the dismissal of both federalquestion and diversity cases involving domestic
relations disputes. See, e.g., Martinez v. Queens Cty.
Dist. Att’y, 596 F. App'x 10, 12 (2d Cir. 2015); Keane v.
Keane, 549 F. App'x 54, 55 (2d Cir. 2014); Hamilton v.
Hamilton-Grinols, 363 F. App'x 767, 769 (2d Cir.
2010); Schottel v. Kutyba, No. 06-1577, 2009 WL 230106,
at *1 (2d Cir. Feb. 2, 2009); Mitchell-Angel v. Cronin,
101 F.3d 108, 1996 WL 107300, at *2 (2d Cir. Mar. 8,
1996).

14a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
MICHAEL DEEM,
Plaintiff,
-againstLORNA DiMELLA-DEEM; ROBERT J.
FILEWICH, PhD; ANGELINA YOUNG; ROLLIN
AURELIEN; ROBIN D. CARTON, ESQ.; FAITH G.
MILLER, ESQ.; ANGELACRV DiMELLA; JANE
DOE; HON. ARLENE GORDON-OLIVER, F.C.J.,
Defendants.
18-CV-6186 (NSR)
ORDER OF DISMISSAL
NELSON S. ROMAN, United States District Judge:
Plaintiff, an attorney who is proceeding pro se,' brings
this action asserting federal constitutional claims under
42 U.S.C. § 1983, conspiracy claims under 42 U.S.C. §
1985, as well as supplemental state-law claims.fn1
Plaintiff has paid the relevant fees to commence this
action and the Clerk of Court has issued a summons.
Plaintiff sues: (1) Lorna DiMella-Deem, his wife,
(2) Robert J. Filewich, PhD, his and his wife's marriage
counselor and mental health practitioner, (3) Angelina
Young, a caseworker employed by the Westchester
County Department of Social Services, (4) Rollin
Aurelien, a senior caseworker employed by the
Rockland County Department of Social Services, (5)
Robin D. Carton, Esq., his wife's attorney, (6) Faith G.

15a
Miller, Esq., an attorney appointed by the Family
Court, Westchester County, to represent his and his
wife's children ("the children") during a proceeding in
that court, (7) Angela DiMella, his sister-in-law, (8) an
unidentified "Jane Doe" defendant who allegedly filed a
child neglect report regarding the children (ECF No.
15, Par. 40) at the behest of DiMella-Deem (id. T 41),
and has been allegedly "acting in concert with the other
defendants and in furtherance of the conspiracy against
Plaintiff' (id. Par. 12), and (9) Arlene Gordon-Oliver, a
Westchester County Family Court Judge who, at one
point, presided over a proceeding regarding the
children and has made interim decisions regarding
them, Plaintiff, and DiMella-Deem.
In his amended complaint, Plaintiff seeks
damages, as well as unspecified declaratory and
injunctive relief. Plaintiff has also filed an "Emergency
ex pane order to show cause" in which he asks the
Court to direct Filewich (the marriage counselor and
mental health practitioner) to "surrender any individual
or joint document regarding marriage counseling or
mental health treatment for Plaintiff [and his wife]" to
the United States Marshals Service. (ECF No. 4.) For
the reasons discussed below, the Court dismisses this
action.
STANDARD OF REVIEW
The Court has the authority to dismiss a
complaint, or portion thereof, even when the plaintiff
has paid the relevant fees, if it determines that the
action is frivolous, Fitzgerald v. First E. Seventh
Tenants Corp., 221 F.3d 362, 363-64 (2d Cir. 2000) (per
curiam), or that the Court lacks subject matter
jurisdiction, Fed. R. Civ. P. 12(h)(3); Ruhrgas AG v.

16a
Marathon Oil Co., 526 U.S. 574, 583 (1999). Normally, a
district court must afford special solicitude to a pro se
litigant; this special solicitude includes "liberal
construction of pleadings, motion papers, and appellate
briefs," as well as "relaxation of the limitations on the
amendment of pleadings." Tracy v. Freshwater, 623
F.3d 90, 101 (2d Cir. 2010). But "the degree of
solicitude may be lessened where the particular pro se
litigant is experienced in litigation and familiar with
the procedural setting presented. The ultimate
extension of this reasoning is that a lawyer
representing himself ordinarily receives no such
solicitude at all." Id. (citation omitted).
BACKGROUND
Plaintiff alleges that in 2017, he came to believe
that his wife, DiMella-Deem, was having sex with
many other people. He alleges that despite her initial
denials of his accusations and her claims that he was
mentally ill, she eventually admitted to such behavior.
Plaintiff's claims arise from the marriage counseling
sessions, child neglect investigations, as well as
Family Court and divorce proceedings that have
allegedly followed.
Plaintiff asserts that all of the defendants have
violated his "right to intimate association with his
children" and "maliciously abused process against" him.
(ECF No. 15, Pars. 136, 143.) He also asserts that
Judge Gordon-Oliver has violated his right to keep and
bear arms. (Id. Par. 138.) He further asserts that all of
the defendants have maliciously prosecuted him, as
well as violated his rights to (1) due process, (2) a "fair
trial/hearing," (3) "parental relations," (4) custody of
the children, and (5) equal protection. (Id. Pars. 140,

17a
145-146, 148-150.) In addition, he alleges that all of the
defendants, with the exception of Judge GordonOliver, have illegally seized and detained him, as well
as violated his right "to not have false evidence levied
against him." (Id. Pars. 141, 147.) Plaintiff further
alleges that all of the defendants conspired against him
to violate his federal constitutional rights. (Id. Par.
153.)
DISCUSSION
A. Judge Gordon-Oliver
The Court must dismiss Plaintiff's claims
against Judge Gordon-Oliver. Judges are absolutely
immune from suit for damages with respect to claims
under 42 U.S.C. §§ 1983 and 1985 for any actions
taken within the scope of their judicial
responsibilities. See Mireles v. Waco, 502 U.S. 9, 11-12
(1991) (§ 1983); Turner v. Boyle, 116 F. Supp. 3d 58, 82
(D. Conn. 2015) ("[A]bsolute immunity extends to all
civil suits, including suits brought under Section 1983
and [S]ection 1985."). Generally, "acts arising out of,
or related to, individual cases before [a] judge are
considered judicial in nature." Bliven v. Hunt, 579
F.3d 204, 210 (2d Cir. 2009). "[E]ven allegations of bad
faith or malice cannot overcome judicial immunity."
Id. at 209. This is because "[w]ithout insulation from
liability, judges would be subject to harassment and
intimidation. . . ." Young v. Selsky, 41 F.3d 47, 51 (2d
Cir. 1994). In addition, as amended in 1996, § 1983
provides that "in any action brought against a judicial
officer for an act or omission taken in such officer's
judicial capacity, injunctive relief shall not be granted

18a
unless a declaratory decree was violated or
declaratory relief was unavailable." 42 U.S.C. § 1983.
Judicial immunity does not apply when a judge
takes action outside her judicial capacity, or when a
judge takes action that, although judicial in nature, is
taken "in the complete absence of all jurisdiction."
Mireles 502 U.S. at 11 -12; see also Bliven, 579 F.3d at
209-10 (describing actions that are judicial in nature).
But "the scope of [a] judge's jurisdiction must be
construed broadly where the issue is the immunity of
the judge." Slump v. Sparkman, 435 U.S. 349, 356
(1978). Courts have specifically applied this immunity
to Family Court judges. See Parent v. New York, 485
F. App'x 500, 504 (2d Cir. 2012) (summary order);
Wrobleski v. Bellevue Hosp., No. 13-CV-8736 (WHP),
2015 WL 585817, at *3 (S.D.N.Y. Jan. 30,2015); Koger
v. New York, No. 13-CV-7969 (PAE), 2014 WL
3767008, at *6 (S.D.N.Y. July 31, 2014), appeal
dismissed, No. 15-092 (2d Cir. June 23, 2015); Pollack r.
Nash, 58 F. Supp. 2d 294, 303 (S.D.N.Y. 1999). Plaintiff
alleges that an application drafted by Young was
submitted to Westchester County Family Court Judge
H. Greenwald, who held an ex parse proceeding
resulting in an interim order directing Plaintiff to
vacate his home and cease all contact with the
children. (ECF No. 15, Pars. 72, 74.) Plaintiff asserts
that "Judge Gordon-Oliver was present during [the
proceeding before Judge Greenwald] and spoke to
[him] about how the matter would be handled for
future court dates." (Id. Par. 75.) Plaintiff also asserts
that Judge Gordon-Oliver "failed or refused to inform
[him] of her ex parse communications in contravention
[of] state law." (Id. 76.) The remainder of Plaintiff's
claims against Judge Gordon-Oliver are about her
interim decisions to (1) restrict Plaintiff, and later

19a
prohibit him, with respect to having contact with the
children, (2) appoint Miller as "Attorney for the
Children," (3) hear arguments from an Assistant
County Attorney who had an admitted conflict of
interest with Plaintiff, (4) order an investigation at the
suggestion of that Assistant County Attorney, (5)
condone a Court Officer's order to Plaintiff to sit while
Plaintiff was addressing the Family Court, while
allowing other parties to stand when doing so, (6)
order Plaintiff to surrender all of his firearms to the
police, (7) vacate an order of protection against
DiMella-Deem, (8) transfer the "family offense
proceedings" to the New York Supreme Court,
Westchester County, where Plaintiff's divorce
proceeding is apparently pending, (9) "put words in the
mouth of Miller "to justify" why Miller argued against
allowing the children to have contact with Plaintiff,
(10) deny Plaintiff a hearing with respect to a
previously issued temporary order of protection
barring Plaintiff from having contact with the
children, and (11) upon being served with Plaintiff's
original complaint in this action and having recused
herself, to extend the abovementioned temporary
order of protection until another Family Court Judge
holds a hearing on September 13, 2018. (See id. Pars.
84, 99, 106110, 112, 119-121, 127-31.)
It is clear, however, that Judge Gordon-Oliver
was well within her authority to make those decisions.3
Judge Gordon-Oliver is thus immune from suit with
respect to Plaintiff's §§ 1983 and 1985 claims against
her. The Court therefore dismisses those claims under
the doctrine of judicial immunity and because they are
frivolous. See Mills v. Fischer, 645 F.3d 176, 177 (2d
Cir. 2011) ("Any claim dismissed on the ground of
absolute judicial immunity is `frivolous' for purposes of

20a
[the in forma pauperis statute]."); Montero v. Travis,
171 F.3d 757, 760 (2d Cit. 1999) ("A complaint will be
dismissed as `frivolous' when `it is clear that the
defendants are immune from suit."' (quoting Neitzke v.
Williams, 490 U.S. 319, 327 (1989))).4
B. Domestic relations abstention doctrine
Under the domestic relations exception, federal
courts sitting in diversity do not have jurisdiction "to
issue divorce, alimony and child custody decrees."
Ankenbrandt v. Richards, 504 U.S. 689, 703 (1992). The
exception is narrow, but even in cases where the Court
may properly exercise original subject matter
jurisdiction, "[a] federal court presented with
matrimonial issues or issues `on the verge' of being
matrimonial in nature should abstain from exercising
jurisdiction so long as there is no obstacle to their full
and fair determination in state courts." American
Airlines, Inc. v. Block, 905 F.2d 12, 14 (2d Cir. 1990)
(per curiam); see Ranney v. Bauza, No. 10-CV-7519
(RJS), 2011 WL 4056896, at *3 (S.D.N.Y. Aug. 31, 2011)
(distinguishing the narrow domestic relations exception
from the broader "American Airlines abstention
doctrine" upon which courts in the Second Circuit
routinely rely). Applying these principles, courts in this
Circuit have abstained from controversies that,
regardless of how a plaintiff characterizes them, "`begin
and end in a domestic dispute."' Tail v. Powell, 241 F.
Supp. 3d 372, 377 (E.D.N.Y. 2017) (quoting Schottel v.
Kutyba, No. 06-1577-cv, 2009 WL 230106, at * 1 (2d Cir.
Feb. 2, 2009) (unpublished summary order)).
The Second Circuit has issued nonprecedential
decisions that consider the exception in several
contexts. See Martinez v. Queens Cnty. Dist. Atty., 596

21a
F. App'x 10, 12 (2d Cir. 2015) (summary order)
(reasoning that "subject matter jurisdiction may be
lacking in actions directed at challenging the results of
domestic relations proceedings," even if parties are not
seeking a custody decree); Schottel, 2009 WL 230106, at
* 1 ("Although we recognize that the domestic relations
`exception is very narrow,' a plaintiff cannot obtain
federal jurisdiction merely by rewriting a domestic
dispute as a tort claim for monetary damages.")
(citation omitted); Mitchell Angel v. Cronin, 101
F.3d 108 (2d Cir. 1996) (unpublished opinion) ("While
the domestic relation exception itself is narrow, it
applies generally to issues relating to the custody of
minors.") (citation omitted). But see King v.
Comm'r & New York City Police Dept, 60 F.
App'x 873, 875 (2d Cir. 2003) (unpublished summary
order) (reasoning that "even under the broadest
interpretation of the [domestic relations] exception, it
applies only to cases that seek issuance or modification
of divorce, alimony, or child custody decrees").
The Court must abstain from exercising
jurisdiction over the remainder of Plaintiff's federal
claims because Plaintiff presents issues that are, or are
on the verge of being, about child custody. Plaintiff's
claims arise from the defendants' alleged actions that
are associated with, led to, and involve Plaintiffs child
neglect, child custody, and divorce proceedings that
are apparently pending in a state court. Plaintiff seeks
unspecified permanent declaratory and injunctive
relief, as well as damages, from Judge Gordon-Oliver,
the Family Court Judge who has made interim
decisions regarding the children, Plaintiff, and his
wife; DiMella-Deem, his wife; Filewich, his and his
wife's marriage counselor and mental health
practitioner; DiMella, his sister-in-law; Young and

22a
Aurelien, the caseworkers assigned to the child
neglect and custody dispute; Carton, his wife's
attorney; Miller, the attorney assigned by the Family
Court to represent the children in the Family Court
proceeding; and an unidentified "Jane Doe" defendant
who allegedly reported child neglect regarding the
children. Thus, it is clear that Plaintiff presents issues
that either are, or are on the verge of being, about
child custody. And Plaintiff has alleged no facts
indicating that there is any "obstacle to [a] full and fair
determination [of his child custody issues] in state
courts." American Airlines, Inc, 905 F.2d at 14.
Accordingly, the Court dismisses the remainder of
Plaintiff's federal claims under the abstention doctrine
articulated in American Airlines.
C. State-law claims
A district court may decline to exercise
supplemental jurisdiction over state-law claims when it
"has dismissed all claims over which it has original
jurisdiction." 28 U.S.C. § 1367(c)(3). Having dismissed
the claims over which the Court has original
jurisdiction, the Court declines to exercise its
supplemental jurisdiction over the state-law claims that
Plaintiff is asserting. See Kolari v. New YorkPresbyterian Hosp., 455 F.3d 118, 122 (2d Cir. 2006)
("Subsection (c) of § 1367 `confirms the discretionary
nature of supplemental jurisdiction by enumerating the
circumstances in which district courts can refuse its
exercise."' (quoting City of Chicago v. Int'l Coll. Of
Surgeons, 522 U.S. 156, 173 (1997))).
CONCLUSION

23a
The Clerk of Court is directed to note service of
this order on the docket. The Court dismisses this
action. The Court dismisses Plaintiffs federal claims
against Judge Gordon-Oliver under the doctrine of
judicial immunity and as frivolous. The Court dismisses
the remainder of Plaintiffs federal claims under the
abstention doctrine articulated by the Second Circuit in
American Airlines, Inc. v. Block, 905 F.2d 12, 14 (2d Cir.
1990) (per curiam). The Court declines to exercise
supplemental jurisdiction with respect to Plaintiffs
state-law claims. 28 U.S.C. § 1367(c)(3). The Court
denies all applications and motions as moot. (ECF Nos.
4 & 7.)
The Court certifies under 28 U.S.C. § 1915(a)(3)
that any appeal from this order would not be taken in
good faith, and therefore in forma pauperis status is
denied for the purpose of an appeal. See Coppedge v.
United States, 369 U.S. 438, 444-45 (1962).
SO ORDERED
Dated: July 24, 2018
White Plains, New York
NELSON S. ROMAN
District Judge
Footnotes
The Court notes that Plaintiff is suspended from
practicing law in this Court. In re: Michael Deem, No.
M-2-238 (S.D.N.Y. June 17, 2016). The Court further
notes that Plaintiff does not mention anywhere in his
original complaint or amended complaint that he is an
attorney or that he is suspended from practicing law in

1

24a
this Court. Plaintiff's amended complaint (ECF No. 15)
is the operative pleading for this action.
2
Plaintiff has consented to electronic set-vice of Court
documents. (ECF No. 3.) He has also filed a motion for
electronic filing privileges. (ECF No. 7.)
3
Plaintiff specifically asserts that Judge GordonOliver granted a petition to transfer the "family
offense proceedings" to the New York Supreme Court,
Westchester County, "in excess of her jurisdiction."
(ECF No. 15, Par. 112.) He also asserts that Judge
Gordon-Oliver was either "in clear absence or in excess
of all jurisdiction" when, upon recusing herself, she
extended a previously issued temporary order of
protection, which prohibited him from having contact
with the children, until September 13, 2018, when a
hearing is to be held by another Family Court Judge.
(Id. Pars. 129-130.) Judges are immune from claims
arising from decisions made in excess of their
jurisdiction, as opposed to decisions made in the clear
absence of their jurisdiction. See Stump, 435 U.S. at
355-57 (quoting Bradley v. Fisher, 80 U.S. 335, 351
(1871)) (footnote omitted). Thus, this Court will not
decide whether these decisions were made in error.
See id. And Plaintiff has alleged no facts showing that
Judge Gordon-Oliver was in clear absence in her
jurisdiction when she made these decisions. See
Bradley, 80 U.S. at 351-52 (explaining the difference
between being "in excess of jurisdiction and being "in
clear absence of 'jurisdiction).
4
The amendment to § 1983, allowing for injunctive
relief against a judge only if a state-court declaratory
decree was violated or state-court declaratory relief is
unavailable, precludes Plaintiff from seeking
injunctive and declaratory relief against Judge
Gordon-Oliver. This is so because Plaintiff can always

25a
appeal Judge Gordon-Oliver's rulings in the state
appellate courts. See, e.g., Berlin v. Meijia, No. 15-CV5308, 2017 WL 4402457, at *4 (E.D.N.Y. Sept. 30,
2017), appeal dismissed, No. 17-3589 (2d Cit. Apr. 18,
2018). Federal district courts do not supervise the
state courts.
Indeed, to the extent that Plaintiff seeks
injunctive and declaratory relief that would cause this
Court to intervene in what appear to be Plaintiff's
pending state-court child neglect, child custody, and
divorce proceedings, this Court is additionally
precluded from doing so under the Younger abstention
doctrine. See Falco v. Justices of the Matrimonial
Parts of the Supreme Court of Suffolk Cnty., 805 F.3d
425, 427-28 (2d Cir. 2015); Black v. Roney, No. 14-CV9026 (KPF), 2018 WL 2766138, at * 13 (S.D.N.Y. June 7,
2018); see also Bukowski v. Spinner, 709 F. App'x 87, 88
(2d Cir. 2018 ) (summary order) (applying Younger
abstention doctrine to claims that a parent "suffered
various constitutional injuries arising from temporary
state-court orders related to her custody and visitation
rights").

26a
Docket No. 18-2266
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 11th day of December,
two thousand and nineteen.
.
ORDER
Michael Anthony Deem,
Plaintiff - Appellant,
v.
Lorna DiMella-Deem, Robert J. Filewich, PhD,
Angelina Young, Rollin Aurelien, Robin D. Carton,
Esq., Faith G. Miller, Angela DiMella, Jane Doe, Hon.
Arlene Gordon-Oliver, F.C.J.,
Defendants - Appellees.
Appellant, Michael Anthony Deem, has filed a petition
for rehearing en banc. The active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

27a
Docket No. 18-2266
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 16th day of December,
two thousand and nineteen.
STATEMENT OF COSTS
Michael Anthony Deem,
Plaintiff - Appellant,
v.
Lorna DiMella-Deem, Robert J. Filewich, PhD,
Angelina Young, Rollin Aurelien, Robin D. Carton,
Esq., Faith G. Miller, Angela DiMella, Jane Doe, Hon.
Arlene Gordon-Oliver, F.C.J.,
Defendants - Appellees.
IT IS HEREBY ORDERED that costs are taxed in
favor of the appellees in the following amounts:
Arlene Gordon-Oliver
$112.80
Angelina Young
$319.00
Rollin Aurelien
$192.20
Robert J. Filewich $190.00
For the Court:
Catherine O'Hagan Wolfe, Clerk of Court

